U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 Economic Development
                       Administration

                       Trade Task Group
                      Seattle, Washington

             Trade Adjustment Assistance
                               for Firms:
                 Cooperative Agreements

                   Final Audit Report No. STL-19882
                                     August 18, 2010




                      For Public Release




       Office of Audits, Seattle Regional Office
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington. D.C. 20230




August 18, 20 I0

Mr. Gary Kuhar, Executive Director
Trade Task Group
1200 Westlake Avenue N., Suite 802
Seattle, WA 98109

Dear Mr. Kuhar:

Enclosed is a copy of the Office of Inspector General's final audit report number, STL-19882,
concerning the Trade Adjustment Assistance for Finns financial assistance awards to your
organization (award numbers 99-26-07621,99-26-07635,99-26-07645, 99-26-07645.01, 99-26­
07661, and 99-26-07661-0 I) by the Economic Development Administration.

This letter is notice of your opportunity and responsibility to review the report and to develop a
complete response that addresses each audit finding and recommendation. If you believe that the
report is in error in any respect or if you disagree with any of the findings and recommendations, it
is important that you explain the error or your reasons for disagreement and submit evidence to the
Department that supports your position or reference any such evidence submitted previously. You
should also explain how each documentary submission supports your position; otherwise, we may
be unable to evaluate the information.

Your response must be postmarked no later than 30 days from the date of this letter. There will be
no extensions to this deadline, and you will have no other opportunity to submit comments,
arguments, or documentation before the Department makes a decision on the audit findings and
recommendations. The Department wi II consider YOUI' complete response in determining what
action to take with respect to our audit. Enclosure I explains administrative dispute procedures
available to you.

As you prepare your response, if you have any questions about this report or the process by which
the Department reaches a final decision, please call David Sheppard, regional inspector general for
audit, at (206) 220-7970 and reference final audit report number STL-19882.

Please send your response (including documentary evidence) to:

       Brian McGowan, Deputy Assistant Secretary
       for Economic Development
       Economic Development Administration
       1401 Constitution Avenue, NW
       Washington, D.C. 20230
Letter to Mr. Gary Kuhar
August 18, 2010
Page 2


Please send a copy of your response to:

       David Sheppard, Regional Inspector General for Audit

       Office of Inspector General

       U.S. Department of Commerce

       915 Second Avenue, Room 3062

       Seattle, WA 98174



After evaluation of your response, the audit action official may provide you with further guidance
or request clarification. Our final report, along with your response, will be posted on OIG's
website pursuant to section 8L of the Inspector General Act of 1978, as amended.


SincIT:~~ I)
 e>X"VfL L
Ann Eilers
                    Elecs
Principal Assistant Inspector General for Audit and Evaluation


Enclosures

cc:	   David H. Leroy, Esq., Chairman, Trade Task Group
       Ronald A. Schoenheit, President, Trade Task Group
       Brian McGowan, Deputy Assistant Secretary for Economic Development
       Joshua Barnes, Audit Liaison, Economic Development Administration
       David Sheppard, Regional Inspector General for Audit
                                                                                       Enclosure 1

                                    NOTICE TO AUDITEE 

                                   Financial Assistance Audits



1. 	 Audit requirements applicable to a particular financial assistance award may be established
     by law, regulation, policy, or the terms of the recipient's financial assistance agreement
     with the Department of Commerce.

2. 	 The results of any audit will be reported to the bureau or office administering the financial
     assistance award and to the recipient/auditee, unless the Inspector General of the
     Department determines that it is in the Government's interest to withhold release of the
     audit report.

3. 	 The results of an audit may lead to adverse consequences for the auditee, including but not
     limited to the following actions (which are subject to applicable laws and regulations):

   •	 suspension and/or termination of current awards;

   •	 referral of identified problems to other federal funding agencies and entities as deemed
      necessary for remedial action;

   •	 denial of eligibility for future awards;

   •	 canceling the authorization for advance payment and substituting reimbursement by
      check;

   •	 establishment of special conditions in current or future awards; and

   •	 disallowance of costs, which could result in a reduction in the amount of federal
      payments, the withholding of payments, the offsetting of amounts due the Government
      against amounts due the auditee, or the establishment of a debt and appropriate debt
      collection follow-up (including referrals to collection agencies).

   Because of these and other possible consequences, an auditee should take seriously its
   responsibility to respond to audit findings and recommendations with explanations and
   evidence whenever audit results are disputed and the auditee has the opportunity to
   comment.

4. 	 To ensure that audit reports are accurate and reliable, an auditee may have the following
     opportunities to point out errors (of fact or law) that the auditee believes were made in the
     audit, to explain other disagreements with audit findings and recommendations, to present
     evidence that supports the auditee's positions, and to dispute final recommendations:
•   During the audit, the auditee may bring to the attention of the auditors at any time
    evidence that the auditee believes affects the auditors' work.

•   At the completion of the audit on-site, as a matter of courtesy, the auditee is given the
    opportunity to have an exit conference to discuss the preliminary audit findings and to
    present a clear statement of the auditee's position on the significant preliminary
    findings, including possible cost disallowances.

•   Upon issuance of the draft audit report, the auditee may be given the opportunity to
    comment and submit evidence during the 30-day period after the transmittal of the
    report. (There are no extensions to this deadline.)

•   Upon issuance of the final audit report, the auditee is given the opportunity to comment
    and to present evidence during the 30-day period after the transmittal of the report.
    (There are no extensions to this deadline.)

•   Upon issuance of the Department's decision (the "Audit Resolution Determination"), on
    the audit report's findings and recommendations, the auditee has the right to appeal for
    reconsideration within 30 calendar days after receipt of the Determination letter if
    monies are due the government. (There are no extensions to this deadline.) The
    Determination letter will explain the specific appeal procedures to be followed.

•   After an appeal is filed, or after the opportunity for an appeal has expired, the
    Department will not accept any further submissions of evidence concerning an auditee's
    dispute of the Department's decisions on the resolution of the financial assistance audit.
    If it is determined that the auditee owes money or property to the Department, the
    Department will take appropriate collection action but will not thereafter reconsider the
    merits of the debts.

•   There are no other administrative appeals available in the Department.




                                              
                                                    UNITED STATES DEPARTMENT OF COMMERCE
                                                    Office of Inspector General
                                                    Washington. D.C. 20230




August 18, 20 I0

MEMORANDUM FOR:	 Brian McGowan, Deputy Assistant Secretary
                 for Economic Development
                 Economic Development Administration



FROM:	                    Ann Eilers   oJ/ril  l(  t Mw
                          Principal Assistant Inspector General for Audit and Evaluation



SUBJECT:	                 Final Audit Report No. STL-19882, Trade Adjustment Assistance
                          for Finns Cooperative Agreements
                          Auditee: Trade Task Group
                          Seattle, Washington
                          EDA Grant Nos. 99-26-07621
                                            99-26-07635
                                            99-26-07645
                                            99-26-07645.0 I
                                            99-26-07661
                                            99-26-07661-0 I

Attached is a copy of our final audit report on the Trade Adjustment Assistance for Firms
(TAAF) awards for your action in accordance with Department Administrative Order (DAO)
213-5, Audit Resolution and Follow-up. Our final audit report has been sent to the recipient,
who has until September 18,20 10, to submit comments and supporting documentation to you.
A copy of our final audit report will be posted on OIG's website pursuant to section 8L of the
Inspector General Act of 1978, as amended.

Under DAO 213-5, you have 60 calendar days from the date of this memorandum to reach a
decision on the actions you propose to take on each audit finding and recommendation and to
submit an audit resolution proposal to this office. The format of the proposal is shown in
Exhibit 8 of the DAO. As applicable, your written proposal must include the rationale andlor
legal basis for reinstating any questioned costs in the report and should reference any
supporting documentation you relied on. Your comments should also address the funds to be
put to better use, if any, cited in the report. Under the DAO, the Office of Inspector General
must concur with your proposal before it may be issued as a final determination and
implemented. The DAO prescribes procedures for handling any disagreements this office may
have with the audit resolution proposal. Also, please copy us when the audit determination
letter is sent to the auditee.

Please direct any questions regarding this report to David Sheppard, regional inspector general
for audit, at (206) 220-7970 and refer to the final audit report number listed above in any
related correspondence.

Attachment



cc:    Phil Paradice, Acting Deputy Assistant Secretary for Regional Affairs and
              Atlanta Regional Director

       Barry Bird, Chief Cowlsel, Economic Development Administration

       Joshua Barnes, Audit Liaison, Economic Development Administration

       Bryan Borlick, Director, Trade Adjustment Assistance for Firms and

              Director, Performance and National Programs

       David Sheppard, Regional Inspector General for Audit





                                               2

                               Report In Brief
                                          U.S. Department of Commerce Ofﬁce of Inspector General
                                                              August 18, 2010



Why We Did this Review             Economic Development Administration
The objective of our audit
was to determine whether the       Trade Task Group: Trade Adjustment Assistance for
Trade Task Group was using
the cooperative agreement
                                   Firms (TAAF) Cooperative Agreement (STL-19882)
funds it received in accor-
dance with award require-          What We Found
ments.
                                   From March 2005 to February 2010, EDA awarded $5,824,514 in TAAF coop-
In particular, our objectives
were to determine whether          erative agreements to the Trade Task Group as part of its efforts to strengthen
(1) costs claimed were reason-     the competitiveness of U.S. companies that have been adversely affected
able, allowable, and allocable     by imported goods and services. The Trade Task Group claimed a total of
to the federal program; (2) the    $5,211,802 in project costs from March 2005 through November 30, 2009.
Trade Task Group established
and followed adequate internal     Our audit found that the Trade Task Group has generally complied with TAAF
controls in the bid process for
                                   grant requirements; however, the group’s ﬁnancial management system did not
consultants; and (3) compa-
nies receiving TAAF assis-         meet the minimum standards required by uniform administrative requirements.
tance had been trade-injured       This deﬁciency has resulted in $41,195 in costs that were unallowable, unsup-
due to foreign competition.        ported, or unreasonable in accordance with Ofﬁce of Management and Budget
                                   cost principles.
Background

The Trade Act of 1974, as
amended, authorized the
President to negotiate inter-
                                   What We Recommended
national trade agreements.
Recognizing that a free trade
policy can result in injuries to   We made the following recommendations to the director of the TAAF program:
U.S. business through market,
sales, and job losses, the act     • 	 disallow and recover the $41,195 in questioned costs;
also created the Trade Adjust-
ment Assistance Program to         • 	 work with the Trade Task Group to determine from which speciﬁc coopera-
mitigate the negative effects          tive agreements funds were carried over and whether any funds should be
on affected manufacturing              disallowed and recovered;
companies by providing tech-
nical assistance.                  • 	 require compliance with minimum federal ﬁnancial management standards;
                                       and
The American Recovery and
Reinvestment Act of 2009      • 	 provide training and guidance to the entities receiving TAAF cooperative
included provisions to expand     agreements to clarify records-retention requirements.
the TAAF program by allow-
ing service industry ﬁrms
the opportunity to apply for
assistance.
U.S. Department of Commerce                                                                                        Final Report STL-19882 

Office of Inspector General                                                                                                August 18, 2010 

 
                                                                  Contents


Introduction..................................................................................................................................... 1 

Summary of Recipient Response and OIG Comments ................................................................... 5 

Findings and Recommendations ..................................................................................................... 7 

    I.      Results of Financial/Compliance Audit .............................................................................. 7 

         A. Questioned Costs Total $41,195 ...................................................................................... 7 

         B. Financial Management System Needs Improvement ....................................................... 8 

    II. Adequate Internal Controls for Procurement of Consultants but EDA Should Clarify 

    Records Retention Requirements .............................................................................................. 12 

    III. Prior OIG Audit Finding Resolved ................................................................................... 12 

Appendix A: Objectives, Scope, and Methodology ..................................................................... 14 

Appendix B: Summary of Source and Application of Funds ....................................................... 16 

Appendix C: Summary of Financial/Compliance Audit............................................................... 17 

Appendix D: Summary of Source and Application of Funds ....................................................... 19 

Appendix E: Summary of Financial/Compliance Audit ............................................................... 20 

Appendix F: Recipient Response.................................................................................................. 22 

U.S. Department of Commerce                                                 Final Report STL-19882 

Office of Inspector General                                                         August 18, 2010 



                                         Introduction

In March 2005, the Economic Development Administration (EDA) awarded the first year of a
3-year Trade Adjustment Assistance for Firms (TAAF) cooperative agreement to the Trade Task
Group in Seattle, Washington. The purpose of the award was to help strengthen the
competitiveness of U.S. companies that have lost domestic sales and employment because of
increased importing of similar goods
and services.

EDA implements the TAAF program
through a network of 11 regional,
nonprofit organizations, which manage
the program through cooperative
agreements. The nonprofit
                                                                               The Trade Act of
organizations are known as Trade
                                                 1974, as amended, authorized the President
Adjustment Assistance Centers
                                                 to negotiate international trade agreements.
(TAACs) and operate as non-federal
                                                 Recognizing that free trade policy can result
business strategy consultants providing
                                                 in injuries to U.S. business through market,
companies with assistance in
                                                 sales, and job losses, the act also created the
developing recovery plans. The TAACs
                                                 Trade Adjustment Assistance (TAA)
assist EDA with the companies’
                                                 Program to mitigate the negative effects on
eligibility, certification, and plan
                                                 affected manufacturing companies by
approval processes. The TAACs also
                                                 providing technical assistance. The American
assist in the hiring and oversight of
                                                 Recovery and Reinvestment Act of 2009
consultants who help companies
                                                 included provisions to expand the Trade
implement recovery plans approved by
                                                 Adjustment Assistance for Firms (TAAF)
EDA. The TAACs usually receive from
                                                 Program by allowing service industry firms
$900,000 to $1.4 million annually to
                                                 the opportunity to apply for TAA.
pay administrative expenses and a share
of the cost for technical assistance. The
TAACs and clients share the cost of
technical assistance on a 50/50 or 75/25 basis. Total project costs per client are limited to
$150,000 with a TAAC share not to exceed $75,000. The companies pay the lesser share of the
cost when split on a 75/25 basis. EDA considers these non-federal contributions to be fees for
services rendered to the client firms, not a matching requirement of the TAACs or program-
related income.

The Trade Task Group is a nonprofit corporation that operates the Northwest Trade Adjustment
Assistance Center (NWTAAC). NWTAAC provides matching grants to companies adversely
affected by competition from imports. NWTAAC’s sole source of income is through the EDA




                                                1

U.S. Department of Commerce                                                 Final Report STL-19882 

Office of Inspector General                                                         August 18, 2010 



cooperative agreements and related fees generated through cost sharing. NWTAAC’s operations
cover the geographic region of Alaska, Idaho, Montana, Oregon, and Washington (see figure 1).

                      Figure 1. Map of the 11 TAAC Regions




                    Source: www.taacenters.org/contact.asp

During the award period of March 2005 through June 2008, the Trade Task Group was awarded
$3.7 million in federal funds with a budgeted non-federal share of $501,900, for total project
costs of $4.2 million. In July 2008, EDA awarded another 3-year TAAF cooperative agreement
to the Trade Task Group. As of our audit date, EDA had approved amendments under this
cooperative agreement for the period July 2008 through February 2010, which included
$2.1 million in federal funds with a budgeted $366,500 non-federal share, for $2.4 million in
total project costs (See table 1). EDA generally awards TAAF cooperative agreements for a
3-year period, which includes an initial cooperative agreement award for the base year with
amendments in the following years based on the funding level appropriated by Congress.

In December 2009, we initiated an audit of the costs claimed by the Trade Task Group. The audit
was limited in scope and intended to specifically address allegations received by our office. The
audit covered the period of March 1, 2005, through November 30, 2009, during which time the
recipient claimed total project costs of $7,019,880, with the federal share totaling $5,211,802.
This included a review of final closeout costs incurred during the March 2005 cooperative


                                                2

U.S. Department of Commerce                                                                     Final Report STL-19882 

Office of Inspector General                                                                             August 18, 2010 



agreement and the costs incurred during the interim period for the July 2008 cooperative
agreement.1

                                 Table 1. Schedule of Cooperative Agreements
                                                                       Cooperative                      Non-
                                                                       Agreement         Federal      Federal
            EDA Award                            Agreement No.            Period          Share        Sharea
           Base Year 1                               99-26-07621     3/1/05 – 2/28/06   $ 1,094,484   $ 120,226
           Amendment 1                               99-26-07635     3/1/06 – 2/28/07     1,087,332     140,403
           Amendment 2                               99-26-07645     3/1/07 – 2/29/08       947,580      77,116
                                                    99-26-07621,
               Amendment 3                          99-26-07635,     3/1/07 – 2/29/08      197,670       69,184
                                                     99-26-07645
           Amendment 4                               99-26-07645     3/1/08 – 5/31/08      316,609       94,982
           Amendment 5                            99-26-07645.01     6/1/08 – 6/30/08      104,060            0
           Total
           Agreement 1                                                                   3,747,735      501,911

           Base Year 2                                 99-26-07661   7/1/08 – 2/28/09      828,055      171,705
           Amendment 1                              99-26-07661.01   3/1/09 – 2/28/10    1,248,724      194,800
           Total
           Agreement 2                                                                   2,076,779      366,505

           Totals                                                                       $ 5,824,514   $ 868,416
           Source: EDA
           a
               Non-federal share refers to contributions to contractual expenditures by the firms receiving
               TAAF assistance. It does not refer to additional expenditures or sources of income required
               by the Trade Task Group.



The objective of our audit was to determine whether the Trade Task Group was using the
cooperative agreement funds in accordance with the award requirements. In particular, the
objectives were to determine whether (1) costs claimed were reasonable, allowable, and allocable
to the federal program; (2) the Trade Task Group established and followed adequate internal
controls in the bid process for consultants; and (3) companies receiving TAAF assistance had
been trade-injured due to foreign competition. Our review of costs incurred was limited in scope
and did not include all expenses claimed. We did not review personnel, benefits, or contractual
expenses, and we performed a targeted, risk-based review of the remaining expenses. For a full
description of our objectives, scope, and methodology, see appendix A.




                                                            
1
 EDA added amendments 4 and 5 to the first cooperative agreement and changed the beginning date for the second
agreement in an effort to bring all TAACs to a consistent agreement period.


                                                                       3

U.S. Department of Commerce                                                 Final Report STL-19882 

Office of Inspector General                                                         August 18, 2010 



Our review identified the following:
   •	 The Trade Task Group has claimed $41,195 in costs that were unallowable, unsupported,
      or unreasonable in accordance with Office of Management and Budget (OMB) cost
      principles. Also, the Trade Task Group’s financial management system does not meet
      minimum standards as required by the uniform administrative requirements (see finding
      1).

   •	 The Trade Task Group has implemented adequate internal controls to ensure that
      consultants hired to provide technical assistance for clients are procured in accordance
      with federal requirements. Furthermore, we did not identify any instances of
      noncompliance with federal procurement requirements (see finding 2).

   •	 We determined that the Trade Task Group is not responsible for certifying firms’
      eligibility for TAAF assistance or ensuring that firms applying for assistance are eligible.
      Therefore, we did not conclude upon the eligibility of firms receiving TAAF assistance in
      this audit.

   •	 The Trade Task Group has obtained adequate certifications and documentation to ensure
      contract compliance with clients and firms (see finding 3).




                                                4

U.S. Department of Commerce                                                  Final Report STL-19882 

Office of Inspector General                                                          August 18, 2010 



                  Summary of Recipient Response and OIG Comments

We received the Trade Task Group’s written response to our draft audit report on April 15, 2010.
The Trade Task Group agreed with some elements of the audit findings but disagreed with
others. We considered the Trade Task Group’s response in preparing the final report and made
some modifications to the details of the report, but we also reaffirm our findings and
recommendations. Due to the volume of the response and backup documents, we appended only
the text of the response (as appendix F) and excluded the attachments. A copy of the complete
response, with all attachments, is available for review at our office. The following summarize the
recipient’s response:

   •	 The Trade Task Group emphasized that costs deemed unsupported have been adequately
      documented and that our questioning of these costs stems from its belief that we would
      not accept documentation it considered adequate. The Trade Task Group further argued
      that certain costs we questioned as unallowable should be allowed as employee morale
      costs and expenses ordinary and necessary in the performance of its mission.

   •	 The Trade Task Group also asserted that its required policies and procedures were
      established over seven years ago. The Trade Task Group argued that it has attempted to
      satisfy the administrative principles of 15 CFR Part 14.

   •	 Finally, the Trade Task Group asserted that its official client files were maintained in
      accordance with EDA guidance. The Trade Task Group alleged that OIG did not
      understand the certification process, which affected our review of the client files.
After reviewing the Trade Task Group’s response, our comments can be summarized as follows:

   •	 The Trade Task Group did not present any additional documentation or information
      regarding the questioned costs that changed our conclusions. Therefore, we reaffirm the
      audit finding of the questioned costs as unallowable, unreasonable, and unsupported as
      set forth in the audit report.

   •	 We acknowledge that the Trade Task Group does have select written policies and
      procedures for financial management activity, but maintain that additional written
      policies and procedures are still necessary to meet the minimum standards for grantees’
      financial systems as set forth in the uniform administrative requirements. The written
      policies and procedures in place should also be improved to fully comply with the
      minimum standards for grantee financial management systems.

   •	 We agree that EDA is responsible for maintaining the official applications and client
      files. We also agree that the Trade Task Group may not be responsible for compliance
      with the records retention requirements of 15 CFR §14.53 if EDA considers client
      applications as a transfer of documents. However, we recommend EDA provide clear
      guidance as to whether it expects the Trade Task Group to maintain copies of all




                                                5

U.S. Department of Commerce                                             Final Report STL-19882 

Office of Inspector General                                                     August 18, 2010 



       documentation. We have modified this finding in response to the Trade Task Group’s
       comments.




                                             6

U.S. Department of Commerce                                                         Final Report STL-19882 

Office of Inspector General                                                                 August 18, 2010 



                                Findings and Recommendations

I.    Results of Financial/Compliance Audit

A. Questioned Costs Total $41,195

We questioned $41,195 in claimed costs as unallowable, unreasonable, or unsupported. From
March 1, 2005, through November 30, 2009, the Trade Task Group incurred $7,019,880 in total
project costs, with the federal share totaling $5,211,802. Our review disclosed that the Trade
Task Group did not ensure its administration of the cooperative agreements adhered to award
terms and conditions inclusive of federal cost principles, uniform administrative requirements,
and special and standard award conditions. The results of our cost-incurred audit are summarized
in table 2 and part B of finding 1, and are further detailed in appendixes B and C for the March
2005 agreement, and appendixes D and E for the interim audit of the July 2008 agreement.



              Table 2. Summary of the Financial Results of Audit
  Federal Funds Disburseda                                                                 $ 5,173,218
Total Costs Incurred                                                $ 7,019,880
Less: Client Contributionsb                                          (1,733,528)
Less: Expenditures from Program Incomec                                 (74,550)
Federal Share of Expenditures                                       $ 5,211,802
Less: Questioned Costs                                                  (41,195)
  Federal Funds Earned                                                                     $ 5,170,607
Agreement 1: Excess of Expenditures over Revenued                        109,058
Agreement 2: Excess of Revenue over Expenditurese                        (70,474)
  Total Reconciling Items                                                                         38,584
  Refund Due the Government                                                                 $     41,195
Source: Trade Task Group (Compiled by OIG)
a
  Federal Funds Disbursed refers to funds received by the Trade Task Group from EDA during the
   period under audit. As we have audited the July 2008 cooperative agreement prior to completion, this
   amount will not tie to the total award from EDA.
b
  Client Contributions are funds paid by client firms to consultants, not expenditures made by the Trade
   Task Group.
c
  Expenditures from Program Income are additional contractual expenses funded by income from client
   firms through cost-sharing. They are not funded by the EDA and should not be included in the federal
   share of expenditures.
d
  The Trade Task Group disbursed $109,058 more than it received from EDA under the March 2005
   cooperative agreement. This is discussed further in Finding 1 (See page 9).
e
  Through November 30, 2009, the Trade Task Group received $70,474 more from EDA than it
   disbursed under the July 2008 cooperative agreement. As the Trade Task Group receives all federal
   funds in advance of making program disbursements, it is expected that revenues will exceed
   disbursements until the end of the agreement.




                                                    7

U.S. Department of Commerce                                                  Final Report STL-19882 

Office of Inspector General                                                          August 18, 2010 



B. Financial Management System Needs Improvement

The Trade Task Group’s financial management system was not adequate to ensure the costs
charged to the cooperative agreement were allowable, reasonable, and adequately supported. Our
audit included an evaluation of the Trade Task Group’s internal controls as they relate to
financial assistance award provisions, specifically those provisions pertaining to financial
management. This internal control weakness increased the risk of potential noncompliance with
award requirements.

Although the Trade Task Group had established informal procedures and select written
procedures, it did not have adequate written procedures for most financial management activities
as required. Furthermore, our review disclosed that the written procedures were deficient, and the
practices themselves and the system’s implementation needed improvement.

Administrative principles at Title 15 of the Code of Federal Regulations (15 CFR), Part 14, are
incorporated by reference into the Trade Task Group’s cooperative agreement with EDA. These
principles set forth the minimum requirements for recipient financial management systems.
Among other things, the principles require recipients to have (1) accurate and complete
disclosure of financial results in accordance with reporting requirements;2 (2) records adequately
identifying the sources and uses of funds;3 (3) adequate internal controls to ensure funds are used
only for authorized purposes;4 (4) comparisons of budget to actual expenses by award;5
(5) written procedures to minimize the time between obtaining advanced federal funds and the
disbursement of those funds;6 (6) written procedures to ensure disbursements are reviewed for
and are consistent with federal cost principles and the terms of the cooperative agreement;7 and
(7) accounting records that are adequately supported by source documentation.8

The Trade Task Group did not have the required written procedures providing a process for
minimizing the time between obtaining advance funds from EDA and the time that related
program disbursements are made. The Trade Task Group receives all payments from EDA
before making qualified program disbursements.

The Trade Task Group did not have adequate documented written policies and procedures to
ensure that required financial reports to EDA were complete and accurate. We found that the
federal share of expenditures reported in the financial status reports did not match the
expenditures in the general ledger for the same time period. This resulted in the under-reporting
of the federal share of expenditures to EDA by $400,232, or 7.24 percent, from October 1, 2004,
                                                            
2
  15 CFR §14.21(b)(1) 

3
  15 CFR §14.21(b)(2) 

4
  15 CFR §14.21(b)(3) 

5
  15 CFR §14.21(b)(4) 

6
  15 CFR §14.21(b)(5) 

7
  15 CFR §14.21(b)(6) 

8
  15 CFR §14.21(b)(7) 



                                                               8

U.S. Department of Commerce                                                                Final Report STL-19882 

Office of Inspector General                                                                        August 18, 2010 



through September 30, 2009. During the audit, the Trade Task Group attempted to recreate
expenditures reported for several reports with significant variances. Several of the reports with
variances were prepared by an employee no longer working at the Trade Task Group. Without
written policies and procedures to show how the original reports were created, the current staff
was not able to determine how reported amounts were calculated. In several financial status
reports with variances, the incorrect amounts appear to have been entered in the report by
mistake. The Trade Task Group’s internal controls were not sufficient to identify and correct the
errors prior to submission.

The Trade Task Group tracked budgeted to actual project expenses by budget year and updated
this analysis on a monthly basis. However, no analysis was performed at the end of each
agreement or award to ensure that funds previously received were fully expended. During the
audit, the Trade Task Group was not able to provide evidence that all funds received had been
disbursed for each cooperative agreement received.

The Trade Task Group’s general ledger documented costs incurred of $3,751,365 related to the
March 2005 cooperative agreement, while funds received from EDA for that agreement totaled
$3,642,307. Therefore, the Trade Task Group disbursed $109,058 more than it received under
that cooperative agreement. As the Trade Task Group is exclusively funded through cooperative
agreements from EDA and related program income,9 any funds available to spend beyond what
was received must have originated from a previous EDA cooperative agreement that was not
fully expended. As the Trade Task Group did not reconcile funds received to funds disbursed by
agreement, we were unable to identify under which cooperative agreement(s) the surplus funds
were originally received.

We also identified that, through November 2009, the Trade Task Group had received
approximately $70,474 from EDA more than it had disbursed during the current cooperative
agreement. However, as EDA provides funds in advance of the Trade Task Group disbursing
program funds, we expect revenues to exceed expenditures until the agreement has ended.
Therefore, we will not consider this an issue and will incorporate this amount as a reconciling
item in determining funds due to the government for the cooperative agreement.

Although Trade Task Group officials explained a process they use for reviewing and determining
whether expenses were allowable, this process was not in place for the entire period under audit.
We found that employees and members of the Board of Directors involved in creating and
approving financial activity did not follow the uniform administrative requirements or allowable
costs according to federal cost principles. Prior to January 2007, expenses claimed by the Trade
Task Group were reviewed only to verify that they were supported by source documents, not for
                                                            
9
  The Trade Task Group received minimal revenue from firms for assistance in preparing Adjustment Proposals and
monitoring the implementation of assistance provided by the consultants. This revenue was used by the Trade Task
Group to increase the amount available to spend on further contractual expenses. This revenue was not significant in
relation to EDA funding and was adjusted for in this analysis.


                                                               9

U.S. Department of Commerce                                                               Final Report STL-19882 

Office of Inspector General                                                                       August 18, 2010 



allowability or reasonableness. However, we identified at least $26,651 in disbursements that did
not have adequate, original supporting documentation. We also identified and questioned
$13,588 in unallowable costs, including at least $11,222 for unallowable alcohol costs and $759
for unallowable gifts.10 An additional $956 in disbursements was questioned as excessive and
unreasonable. As we used a risk-based method of selecting disbursements for testing, we were
not able to extrapolate questioned costs identified to the remaining population of untested
transactions.

In October 2009, the Trade Task Group established a written policy for travel expenses, but this
policy was not adequate. The travel policy approved by the board of directors provides guidance
on the type of costs that are considered allowable, but does not provide guidance on what amount
is considered a reasonable expense and what would be considered excessive.

The Trade Task Group provided all written policies and procedures for financial management
activities during the audit period. The written procedures provided were not adequate and did not
meet the minimum federal standards for financial management systems as previously
summarized from the Uniform Administrative Requirements (15 CFR Part 14) above.

Internal controls represent a vital part of the minimum federal standards for financial
management systems. Those minimum standards require recipients of federal financial assistance
to maintain a system of internal controls to assure effective control and accountability over
federal funds and other assets sufficient to assure that all such property and funds are used solely
for authorized purposes. Internal controls are expected to help keep an organization focused on
its objectives and mission, promote effective and efficient operations, and ensure compliance
with laws and regulations. The system should demonstrate an effectively functioning control
environment where the board, executive management, and staff alike (1) clearly understand their
responsibilities and authorities and (2) recognize that they will be uniformly held accountable
within the organization as well as to the American taxpayers who fund their operations.

As presented in subsection A above, we concluded that the financial management internal
control weakness resulted in our identification of $41,195 in questioned claimed costs as
unallowable, unreasonable, or unsupported (See table 3 below).




                                                            
10
  OMB Circular A-122, Attachment B, 3. (“Alcoholic beverages. Costs of alcoholic beverages are unallowable.”).
OMB Circular A-122, Attachment B, 12.a. (“Contributions or donations rendered. Contributions or donations,
including cash, property, and services, made by the organization, regardless of the recipient, are unallowable.”).


                                                               10 

U.S. Department of Commerce                                                Final Report STL-19882 

Office of Inspector General                                                        August 18, 2010 



                      Table 3. Summary of Questioned Costs
                                  Description               Amount
                          Unsupported                       $ 26,651
                          Unallowable                         13,588
                          Unreasonable                           956

                          Total Questioned Costs            $ 41,195


Recommendations

We recommend that the director of the TAAF program:
    1.	 Disallow and recover $41,195 in questioned project cost.
    2.	 Work with the Trade Task Group to determine from which specific cooperative
        agreements the additional $109,058 disbursed in the March 2005 cooperative agreement
        originated. EDA should then determine what amount, if any, should be disallowed and
        repaid to EDA.
    3.	 Require the Trade Task Group to comply with minimum federal financial management
        standards to:

       a.	 Develop and document adequate written procedures that will ensure that only
           allowable, allocable and reasonable costs are claimed.

       b.	 Develop and document adequate written policies and procedures to ensure that the
           time between obtaining advance funds from EDA and the disbursement of related
           expenditures is minimized.

       c.	 Obtain adequate supporting documentation for all costs charged to the federal
           program.

       d.	 Train all Trade Task Group employees and officials that create or review financial
           activity on federal cost principles; administrative requirements; and the duties,
           responsibilities, and limitations placed in managing federal funds. This training
           should ensure that all individuals who create or review financial activity have an
           adequate understanding of federal requirements as they relate to the cooperative
           agreements.




                                                11 

U.S. Department of Commerce                                                  Final Report STL-19882 

Office of Inspector General                                                          August 18, 2010 



  II.	        Adequate Internal Controls for Procurement of Consultants but EDA Should 

              Clarify Records Retention Requirements 


We reviewed the Trade Task Group’s internal controls for the procurement of consultants as well
as files of client firms for compliance with federal procurement requirements. The review for the
procurement of consultants hired to provide technical assistance to client firms receiving TAAF
assistance also included a review of the Trade Task Group’s Contract Administrative Manual.
We concluded that the Trade Task Group has implemented adequate internal controls to ensure
compliance with federal procurement requirements. Our review of 25 Trade Task Group clients’
files did not identify any instances of noncompliance with the federal procurement requirements
for the selection of the consultants.

However, our review revealed that 11 of the clients’ files did not contain all of the supporting
documentation needed to verify the eligibility of applicant firms. Retention and access
requirements for records are provided in 15 CFR, Section 14.53, which is incorporated by
reference in the cooperative agreement. It requires all records pertinent to the cooperative
agreements be retained for 3 years after the date of the final expenditure report for the award.11
However, the guidance does provide an exception to the requirement when records are
transferred to or maintained by the Department of Commerce.12 Although the Trade Task Group
was required to submit the documentation to EDA during the application process, our review
found that the guidance from EDA was not clear about whether this was considered a transfer of
documents or merely a submission. The Trade Task Group asserted that all missing information
had been transferred to EDA during the client certification process.

Recommendations

We recommend that EDA determine whether it considers applications to be submittals or
transfers of documents. EDA should then provide guidance to the TAACs to clarify what
documentation EDA expects them to maintain.



III.          Prior OIG Audit Finding Resolved

In September 2001, the OIG released an audit report that NWTAAC, in addition to eight other
TAACs, needed to improve internal controls for monitoring contract compliance with clients and
consultants. Specifically, we recommended obtaining written certifications or other
documentation from consultants and clients to verify clients paid their required share of costs and
that firms had provided satisfactory levels of service to the clients.


                                                            
11
     15 CFR §14.53(b)
12
     15 CFR §14.53(b)(3)


                                                               12 

U.S. Department of Commerce                                                   Final Report STL-19882 

Office of Inspector General                                                           August 18, 2010 



This audit concluded that the Trade Task Group has obtained the adequate certifications and
documentation to demonstrate clients had paid their required portion of contracts and were
satisfied with the results from the consultants prior to making final payment to the consultant.
                               




                                                13 

U.S. Department of Commerce                                                  Final Report STL-19882 

Office of Inspector General                                                          August 18, 2010 



                    Appendix A: Objectives, Scope, and Methodology

The objectives of our audit of the cooperative agreements were to determine whether (1) costs
claimed were reasonable, allowable, and allocable to the federal program; (2) the Trade Task
Group established and followed adequate internal controls in the bid process for consultants; and
(3) companies receiving TAAF assistance had been trade-injured due to foreign competition. We
also conducted a follow-up on prior audit recommendations. Specifically, we reviewed contract
files to determine whether the Trade Task Group properly monitored contract compliance with
clients and firms in terms of cost-sharing and ensuring clients were satisfied with the
performance of consultants.

The audit scope included a review of costs claimed during the award period of March 1, 2005,
through November 30, 2009. The scope of our audit was limited and did not include a review of
all expenses for the period under audit. We did not audit personnel, fringe benefits, or contract-
related expenses, and used a risk-based approach to audit all other expenses. As we did not use
statistical sampling to select transactions for testing, we were not able to extrapolate results of
testing to the population of untested transactions. We conducted our fieldwork in December 2009
through January 2010 at the Trade Task Group office in Seattle, Washington, and in OIG offices
in Seattle, Washington, and Denver, Colorado.

Our audit methodology included review of award files at the Trade Task Group and award and
technical files provided by EDA. We (1) examined financial, personnel, and contract records;
(2) interviewed EDA employees and Trade Task Group staff; (3) applied relevant analytical
procedures; and (4) conducted selective transaction testing based on risk. We reviewed OMB
Circular A-133 single audit reports issued by the Trade Task Group’s external auditor for the
fiscal years ending September 30, 2005, through September 30, 2008. The external auditor
rendered unqualified opinions for the four audits, and the Trade Task Group qualified as a low-
risk auditee, as defined by OMB Circular A-133. Department of Commerce funding was audited
as a major program and the independent auditor did not question costs.

Our audit included an evaluation of the Trade Task Group’s internal controls and compliance
with laws and regulations as they related to financial assistance award provisions, specifically
those provisions pertaining to financial management and procurement. Key criteria we
considered in conducting the audit included the Trade Task Group’s cooperative agreement
applications and assurances, the EDA awards and their respective standard and special terms and
conditions, Department of Commerce Financial Assistance Standard Terms and Conditions,
federal cost principles set forth in A-122, and the uniform administrative requirements of
15 CFR Part 14. We found several instances of noncompliance with laws and regulations. Those
instances are described in the body of this report.

We obtained an understanding of the management controls of the Trade Task Group by
interviewing Trade Task Group officials, examining policies and procedures, reviewing written


                                                14 

U.S. Department of Commerce                                                Final Report STL-19882 

Office of Inspector General                                                        August 18, 2010 



assertions of Trade Task Group officials, and examining Trade Task Group’s OMB Circular No.
A-133 audit reports for fiscal years 2005 through 2008. We did not rely on the accounting firm’s
internal control reviews, but instead determined that we could better meet our audit objectives
through testing of transactions. We found that the Trade Task Group needs to improve several
aspects of its management controls. The issues are discussed in the body of this report.

To assess the reliability of computer-process data provided by the Trade Task Group, we
(1) looked for obvious errors in accuracy and completeness; (2) interviewed Trade Task Group
employees who were knowledgeable about the data; (3) compared general ledger totals from the
electronic files to monthly bank statements and audited financial statements; and (4) directly
tested data against supporting documentation. We determined that the data were sufficiently
reliable for the purpose of this report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

We performed this audit under the authority of the Inspector General Act of 1978, as amended,
and Department Organization Order 10-13, dated August 31, 2006.



 




                                               15 

U.S. Department of Commerce                                                            Final Report STL-19882 

Office of Inspector General                                                                    August 18, 2010 



                  Appendix B: Summary of Source and Application of Funds
                                             Trade Task Group

                 Trade Adjustment Assistance for Firms Cooperative Agreements 

         Final Audit of Cooperative Agreements 99-26-07621, 99-26-07635, 99-26-07645, 

                                            and 99-26-07645.01 

                                 March 1, 2005, through June 30, 2008 



                                                              Approved                 Claimed By
                                                         Award Budget                   Recipient
Source of Funds

Federal Share                                                 $   3,747,734              $    3,751,365
Recipient Sharea                                                    501,911                   1,237,819

Total                                                         $   4,249,645              $    4,989,184


Application of Funds

Personnel                                                     $   1,360,787              $    1,221,686
Fringe Benefits                                                     480,116                     430,662
Travel                                                              105,106                      73,424
Equipment                                                            19,754                      19,512
Supplies                                                             16,743                      14,728
Contractual                                                       1,667,707                   2,673,373
Other Direct                                                        599,432                     555,799
Indirect                                                                  -                           -

Total                                                         $   4,249,645              $    4,989,184


a
    Recipient share refers to the contribution from the client firm to the cost of the contractual
    expenses. Although it is included in the total project budget by EDA, it does not refer to a matching
    requirement for the Trade Task Group.

 




                                                       16 

           U.S. Department of Commerce                                                                                                                           Final Report STL-19882




                                                                                                                                                                                           
 

           Office of Inspector General                                                                                                                                   August 18, 2010


                                                    Appendix C: Summary of Financial/Compliance Audit
                                                                           Trade Task Group
                                                Trade Adjustment Assistance for Firms Cooperative Agreements
                              Final Audit of Cooperative Agreements 99-26-07621, 99-26-07635, 99-26-07645, and 99-26-07645.01
                                                               March 1, 2005, through June 30, 2008
                                                                                                                                             Per Audit
                                                                                                                                          Costs
                                     Approved Project                                                                                                                                        Ref.
        Cost Category                    Budget              Claimed by Recipient               Accepted                 Unaudited           Questioned              Unsupported            Notes
                                                                                                                                                                        (Note 1)
Personnel                                      $1,360,787                 $ 1,221,686           $                       $ 1,221,686               $          -          $           -       Note 2
                                                                                                            -
Fringe Benefits                                  480,116                     430,662                            -            430,662                                                        Note 2
                                                                                                                                                          -                         -
Travel                                           105,106                      73,424                 72,595                           -                  829                       442      Note 3
Equipment                                         19,754                      19,512                 19,512                           -
                                                                                                                                                         -                          -
Supplies                                          16,743                      14,728                 14,588                           -                 140                                 Note 4
                                                                                                                                                                                    -
Contractual                       1,667,707                  2,673,373
  Less:
        Client Contribution        (501,911)                (1,179,569)
        Program Income                          1,165,796      (58,250)    1,435,554                            -          1,435,554                                                        Note 2
                                                                                                                                                          -                      -
Other Direct Cost                       -        599,432                     555,799                528,203                                                                  14,262         Note 5
                                                                                                                                   -                  27,596
Total Direct Cost                               3,747,734                  3,751,365                634,898                3,087,902                  28,565                 14,704
Indirect                                                -                          -                                                                     -                          -
Fee                                                                                                     -                         -
                                                       -                           -                                                                      -                      -
                                                                                                      -                          -
Total                                          $3,747,734                 $ 3,751,365           $ 634,898                $ 3,087,902              $   28,565            $   14,704

Federal Share                                    100.00%                                                        $ 3,722,800
Less Federal Disbursements to Date                                                                                  (3,642,307)
Less Excess of Expenditures over Revenue                                                                             (109,058)
Due (Government)/Recipient                                                                                      $      (28,565)




                                                                                       17
                                                                                            

U.S. Department of Commerce                                                      Final Report STL-19882 

Office of Inspector General                                                              August 18, 2010 


Reference Notes

Note 1         Unsupported costs are those costs that the recipient could not adequately support at the
               time of audit; unsupported costs are also included in the total of questioned costs.

Note 2         The scope of our audit was limited. We did not audit personnel, fringe benefit, or
               contractual expenses and therefore do not make any representation as to the allowability
               of those expenses.

Note 3         Questioned travel costs totaling $829 are comprised of $442 in unsupported meal
               expenses and $387 in unallowable expenses. Included in the unallowable expenses are
               $327 for alcohol (per OMB Circular A-122, Attachment B,3.) and $60 for meal expenses
               for individuals not in travel status or non-employees or members of the Board of the
               Trade Task Group.

Note 4         Questioned supplies costs totaling $140 are comprised of gifts. Gifts are unallowable
               expenses per OMB Circular A-122, Attachment B,12.

Note 5         Questioned other direct costs totaling $27,596 are comprised of $14,262 in unsupported
               expenses; $12,378 in unallowable expenses; and $956 in unreasonable expenses.
               Included in the unsupported expenses were charges for meals that did not have
               adequate, original supporting documentation (OMB Circular A-122, Attachment A,
               A.2.g.). Included in the unallowable expenses were $10,895 for alcohol (OMB Circular A-
               122, Attachment B,3); $48 for movies charged to hotel rooms (OMB Circular A-122,
               Attachment B,14); $343 for a second room for a director at a Board of Directors’ meeting
               (OMB Circular A-122, Attachment A, A.2.a.); and $1,092 for an employee’s retirement
               dinner (OMB Circular A-122, Attachment B,14). Unreasonable expenses resulted from
               members of the Board of Directors’ receiving upgraded hotel rooms at a higher cost than
               rooms provided to the Trade Task Group employees at a Board meeting. The amount
               was calculated as the difference between the cost of hotel rooms provided to employees
               and those provided to the Board (OMB Circular A-122, Attachment A, A.3).




                                                  18 

U.S. Department of Commerce                                                            Final Report STL-19882 

Office of Inspector General                                                                    August 18, 2010 



                  Appendix D: Summary of Source and Application of Funds
                                             Trade Task Group

                 Trade Adjustment Assistance for Firms Cooperative Agreements 

            Interim Audit of Cooperative Agreements 99-26-07661 and 99-26-07661-01 

                                July 1, 2008, through November 30, 2009 





                                                              Approved                Claimed By
                                                        Award Budget                   Recipient
Source of Funds

Federal Share                                                 $   2,076,780            $      1,460,438
Recipient Sharea                                                    366,505                     570,258

Total                                                         $   2,443,285            $      2,030,696


Application of Funds

Personnel                                                     $     706,261            $        566,081
Fringe Benefits                                                     237,642                     201,057
Travel                                                               55,894                      26,036
Equipment                                                             6,754                       6,312
Supplies                                                              7,237                       6,748
Contractual                                                       1,120,799                     978,640
Other Direct                                                        308,698                     245,822
Indirect                                                                  -                           -

Total                                                         $   2,443,285            $      2,030,696
a
    Recipient share refers to the contribution from the client firm to the cost of the contractual
    expenses. Although it is included in the total project budget by EDA, it does not refer to a matching
    requirement for the Trade Task Group.


 




                                                       19 

           U.S. Department of Commerce                                                                                                                              Final Report STL-19882




                                                                                                                                                                                              
 

           Office of Inspector General                                                                                                                                      August 18, 2010


                                                         Appendix E: Summary of Financial/Compliance Audit
                                                                               Trade Task Group
                                                  Trade Adjustment Assistance for Firms Cooperative Agreements
                                             Interim Audit of Cooperative Agreements 99-26-07661 and 99-26-07661-01
                                                                  July 1, 2008, through November 30, 2009
                                                                                                                                               Per Audit
                                                                                                                                            Costs
                                  Approved Project                                                                                                                                              Ref.
        Cost Category                 Budget                       Claimed by Recipient             Accepted              Unaudited            Questioned               Unsupported            Notes
                                             (Note 2)                                                                                                                      (Note 1)
Personnel                                         $ 706,261                   $ 566,081             $           -         $    566,081          $               -          $            -      Note 2
Fringe Benefits                                         237,642                  201,057                         -             201,057                                                         Note 2
                                                                                                                                                            -                          -
Travel                                                  55,894                    26,036                 25,737                         -                  268                        219      Note 3
Equipment                                                 6,754                    6,312                                                -
                                                                                                                                                           -                           -
Supplies                                                  7,237                    6,748                6,312                           -                                                      Note 4
                                                                                                                                                          119                          -
Contractual                     1,120,799                          978,640                              6,629

  Less:
        Client Contribution     (366,505)                         (553,958)
        Program Income                                  754,294    (16,300)      408,382                        -              408,382                                                         Note 2
                                                                                                                                                            -                          -
Other Direct Cost                        -              308,698                  245,822                233,579                                                                                Note 5
                                                                                                                                      -                 12,243
                                                                                                                                                                               11,727
Total Direct Cost                                  2,076,780                   1,460,438                272,288               1,175,520                 12,630
                                                                                                                                                                               11,946
Indirect                                                     -                         -                                                                    -                        -
Fee                                                                                                         -                       -
                                                         -                             -                                                                    -                        -
                                                                                                          -                       -
Total                                            $2,076,780                   $ 1,460,438           $ 272,288             $ 1,175,520               $   12,630             $    11,946

Federal Share                                       100.00%                                                      $ 1,447,808
Less Federal Disbursements to Date                                                                                   (1,530,912)
Less Excess of Revenues Over Disbursements                                                                               70,473
Due (Government)/Recipient                                                                                       $      (12,630)




                                                                                           20
                                                                                                

U.S. Department of Commerce                                                      Final Report STL-19882 

Office of Inspector General                                                              August 18, 2010 


Reference Notes

Note 1         Unsupported costs are those costs that the recipient could not adequately support at the
               time of audit; unsupported costs are also included in the total of questioned costs.

Note 2         The scope of our audit was limited. We did not audit personnel, fringe benefit, or
               contractual expenses and therefore do not make any representation as to the allowability
               of those expenses.

Note 3         Questioned travel costs totaling $268 were comprised of $219 in unsupported expenses
               and $49 in unallowable expenses. Unsupported expenses were comprised of meals that
               did not have adequate supporting, original documentation (OMB Circular A-122,
               Attachment A, A.2.g.). Unallowable expenses were comprised of meal expenses for
               individuals not in travel status and therefore not eligible for reimbursement of meal
               expenses.

Note 4         Questioned supplies expenses totaling $119 were comprised of gifts. Gifts are
               unallowable expenses per OMB Circular A-122, Attachment B,12.

Note 5         Questioned other direct costs totaling $12,243 were comprised of $11,727 in
               unsupported expenses and $516 in unallowable expenses. Unsupported expenses were
               meal expenses that did not have adequate supporting, original documentation (OMB
               Circular A-122, Attachment A, A.2.g.). Unallowable expenses consisted of $16 for a
               movie charged to a hotel room (OMB Circular A-122, Attachment B,14) and a $500
               retirement gift to a former employee and contractor (OMB Circular A-122, Attachment
               B,12).



 




                                                  21 

U.S. Department of Commerce                                    Final Report STL-19882 

Office of Inspector General                                            August 18, 2010 



                              Appendix F: Recipient Response




                                            22 

U.S. Department of Commerce          Final Report STL-19882 

Office of Inspector General                  August 18, 2010 





                              23 

U.S. Department of Commerce          Final Report STL-19882 

Office of Inspector General                  August 18, 2010 





                              24 

U.S. Department of Commerce          Final Report STL-19882 

Office of Inspector General                  August 18, 2010 





                              25 

U.S. Department of Commerce          Final Report STL-19882 

Office of Inspector General                  August 18, 2010 





                              26 

U.S. Department of Commerce          Final Report STL-19882 

Office of Inspector General                  August 18, 2010 





                              27 

U.S. Department of Commerce          Final Report STL-19882 

Office of Inspector General                  August 18, 2010 





                              28 

U.S. Department of Commerce          Final Report STL-19882 

Office of Inspector General                  August 18, 2010 





                              29 

U.S. Department of Commerce          Final Report STL-19882 

Office of Inspector General                  August 18, 2010 





                              30 

U.S. Department of Commerce          Final Report STL-19882 

Office of Inspector General                  August 18, 2010 





                              31 

U.S. Department of Commerce          Final Report STL-19882 

Office of Inspector General                  August 18, 2010 





                              32 

U.S. Department of Commerce          Final Report STL-19882 

Office of Inspector General                  August 18, 2010 





                              33 

U.S. Department of Commerce          Final Report STL-19882 

Office of Inspector General                  August 18, 2010 





                              34 

U.S. Department of Commerce          Final Report STL-19882 

Office of Inspector General                  August 18, 2010 





                              35 

